<html>
<title> - OPEN HEARING TO CONSIDER THE NOMINATION OF HON. DAN COATS TO BE DIRECTOR OF NATIONAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 115-45]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-45

                OPEN HEARING TO CONSIDER THE NOMINATION
                    OF HON. DAN COATS TO BE DIRECTOR
                        OF NATIONAL INTELLIGENCE

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, FEBRUARY 28, 2017

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     
      


         Available via the World Wide Web: http://www.fdsys.gov
                    
                    
                    
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-745 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2542554a65465056514d4049550b464a480b">[email&#160;protected]</a>                    
                    
                    
                    
                    
                    
                    
                    
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                       Kelsey Bailey, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                           FEBRUARY 28, 2017

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Hon. Mark R., Vice Chairman, a U.S. Senator from Virginia     2

                               WITNESSES

Chambliss, Hon. Saxby, former U.S. Senator from Georgia..........     4
Coats, Hon. Dan, Nominated to be Director of National 
  Intelligence...................................................     6
    Prepared statement...........................................    12

                         SUPPLEMENTAL MATERIAL

Letter dated February 28, 2017, from the Electronic Privacy 
  Information Center.............................................    44
Prehearing Questions and Responses...............................    50

 
                      OPEN HEARING TO CONSIDER THE
                   NOMINATION OF HON. DAN COATS TO BE
                   DIRECTOR OF NATIONAL INTELLIGENCE

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2017

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:07 p.m. in Room 
SD-106, Dirksen Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr, Warner, Risch, 
Rubio, Collins, Blunt, Lankford, Cotton, Cornyn, McCain, Wyden, 
Heinrich, King, Manchin, and Harris.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I call this hearing to order. I'd like to 
welcome our witness today, Senator Dan Coats, President Trump's 
nominee to be the next Director of National Intelligence. Dan, 
congratulations on your nomination and welcome back. I'm sure 
you didn't expect to be walking in these halls so soon after 
your retirement.
    I'd also like to welcome back your wife and my good friend 
Marsha, and I want to thank her for her support for you and her 
willingness to share you with the rest of the country. I've 
known both of you for many years and I've seen firsthand the 
strength of the relationship that you so thoughtfully describe 
in your statement for the record.
    Our goal in conducting this hearing is to enable the 
committee to consider Senator Coats' qualifications and to 
allow for thoughtful deliberation by our members. He's already 
provided substantive written responses to more than 148 
questions presented by the committee and its members. Today, of 
course, members will be able to ask additional questions and 
hear from Senator Coats in both open and closed session.
    Dan Coats comes to us with more than 34 years of honorable 
service in the House, the Senate, and as the U.S. Ambassador to 
Germany. Those of us who have had the good fortune to work with 
Dan know the depth of his commitment to the intelligence 
community and, more importantly, to its workforce.
    Senator Coats, you've been asked to lead the intelligence 
community in a time of profound threat and challenge. We're 
facing threats from State and non-State actors alike and are 
engaged in a robust debate at home on the scope and the scale 
of intelligence collection and what authorities are right, 
appropriate, and lawful.
    I expect you will be a forceful advocate for the 
intelligence community in those discussions, while maintaining 
an unwavering respect for the rule of law. I have complete 
trust that you will lead the community with integrity and will 
ensure that the intelligence enterprise operates lawfully, 
ethically, and morally.
    As the DNI, one of your most important tools will be the 
legal authorities provided under the Foreign Intelligence 
Surveillance Act, scheduled to sunset later this year. They 
enable the intelligence community to protect our troops, 
anticipate terrorist threats, and to mitigate cyber attacks, 
all while safeguarding the privacy and the civil liberties of 
the American people.
    Simply put, it's essential that Congress authorize these 
authorities to help keep the country safe while protecting our 
constitutional rights. I look forward to working with you and 
all of my colleagues to reauthorize FISA as soon as possible.
    Dan, I've known you for many years and believe your years 
of service to our Nation and unique experience make you a 
natural fit to lead our intelligence community. As mentioned to 
Director Pompeo during his nomination, I can assure you that 
this committee will continue to faithfully follow its charter, 
conduct vigorous and real-time oversight over the intelligence 
community, its operations, and its activities. We'll ask 
difficult and probing questions of you and your staff and we 
will expect honest, complete, and timely responses.
    I look forward to supporting your nomination and ensuring 
its consideration without delay. I want to thank you again for 
being here and for your years of service to the country. I look 
forward to your testimony, and I will now recognize the Vice 
Chairman for any comments he might make.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman, and I also 
want to welcome you, Dan, and congratulations on your 
nomination to serve as the fifth Director of the National 
Intelligence. We have known each other for many years and I 
believe the President has made an excellent choice in asking 
you to serve as DNI.
    Let me also echo the Chairman's comments in acknowledging 
your wife Marsha. I remember our wonderful trips we've had 
together. I would point out that the only thing that I might 
potentially hold against you is that your so-called sherpa that 
you brought along, Senator Chambliss, raises some questions of 
judgment in my mind, but I won't hold them against you 
throughout the whole hearing today.
    Senator Coats is well-known to the Senate Intelligence 
Committee. He served as a senior member of this committee for 
many years and has been an advocate for assertive oversight of 
the intelligence community throughout his tenure. Dan firmly 
believes in the value of intelligence and the importance of its 
timely, relevant, and absolutely free of political influence.
    As the Nation's chief intelligence officer, your job will 
be to find and follow the truth regardless of where it leads. 
It all comes down to the obligation that we've all talked about 
on this committee when we served together: tell truth to power, 
to the President, to the policy and military leaders, to the 
Executive Branch, to members of Congress. Maintaining your 
integrity and independence even in the face of political 
pressure is an absolute requirement of this position.
    Dan, the job for which you've been nominated has many 
rewards and possibly even more challenges. You will be expected 
to lead an enterprise, as we've talked about privately, of 17 
diverse intelligence agencies. In some areas you will have 
clear authority to direct actions. But, as we know, in most 
areas the ODNI has to also convince rather than simply having 
direct authority.
    You'll be expected to serve as the President's top 
intelligence officer, to coordinate and integrate intelligence 
community activities, to lead the work to enhance the 
effectiveness and efficiency of the intelligence enterprise and 
ensure the integrity of that analytic product.
    While these are just a few of the many issues you will 
face, I know you're up to the challenge. But I need to make 
clear, even in my opening statement, that one of the first 
challenges I will ask you to take on, head on, is to support 
our efforts to understand Russia's interference in the 2016 
Presidential election. As you know, this committee is 
conducting an investigation into that interference. We're also 
looking into whether any individuals associated with U.S. 
political campaigns inappropriately engaged with officials of 
the Russian government. And we will seek to determine what the 
intentions of those interactions were.
    We take this matter very, very seriously. The Chairman and 
I, as well as members of the committee on both sides of the 
aisle, have made commitments that the outcome of this 
investigation will not be prejudged and that the committee will 
follow wherever the information leads. We need to get it right. 
It's my intention that this investigation will remain 
bipartisan and seek to be as transparent as possible and remain 
free of any political consideration or interference, including, 
including interference from the White House. I will not accept 
any process that is undermined by such political interference.
    This inquiry will be thorough and it will be exhaustive, 
because at end of the day what we owe most is answers to the 
American public. You know how important this type of inquiry 
is. It's not about being a Democrat or Republican. Nor is it 
about relitigating the 2016 election. This is truly about 
upholding the core values and sanctity of the democracy that 
all Americans hold dear. Our plan is to review both the raw and 
finished intelligence and understand how the intelligence 
community made its conclusions on Russian interference.
    And I will ask you today again to commit to all members of 
this committee that you will fully cooperate with this review 
and that you will direct all the intelligence community 
agencies to provide all the information that we require, 
including the raw information, to make sure we get it right.
    On other topics, you and I had a very good conversation in 
my office a few weeks ago, where again we talked about the fact 
that we didn't think you'd be back in so quickly. I very much 
appreciated that conversation. And you assured me there that 
you will not support the return of waterboarding or other so-
called ``enhanced interrogation practices,'' nor will you 
support reestablishing secret detention sites operated by the 
IC.
    You also assured me that you will always present to the 
President, his Cabinet and advisers and Congress the 
unvarnished facts as represented by the best judgment of the 
intelligence community, whether that analysis is in agreement 
or disagreement with the views of the President or, for that 
matter, anyone else. Again, I will ask you today to reaffirm 
those commitments that you made to me and make them publicly to 
the American public.
    Finally, if confirmed--and I look forward to supporting 
you--you will have the unique challenge of working for a 
President who has said comments that I believe at times have 
denigrated some of the work of the intelligence community. So 
you will have a very incredibly important role to make sure 
that the brave men and women who serve us, often in anonymity, 
that you will have their back, and that you will make sure that 
the morale of these brave men and women is increased and is 
respected.
    Senator Coats, again I want to thank you for being with us 
today. I want to thank you for your willingness to serve. And I 
look forward to working with the Chairman as we go through this 
hearing. Thank you, very much.
    Chairman Burr. Thank you, Vice Chairman.
    I'd like to now recognize our former colleague, former Vice 
Chairman of the Select Committee on Intelligence, and my good 
friend, Saxby Chambliss, who will be introducing Senator Coats.
    Saxby.

  STATEMENT OF HON. SAXBY CHAMBLISS, FORMER U.S. SENATOR FROM 
                            GEORGIA

    Senator Chambliss. Thank you very much, Mr. Chairman, Mr. 
Vice Chairman, members of the Committee.
    Chairman Burr. Cut on that microphone, would you? I know 
it's been a long time since you've been here.
    Senator Chambliss. You know, when I was in the Senate 
somebody did all this for me. I've had to adjust to a lot of 
things like that.
    [Laughter.]
    It's really good to be back in front of so many friends on 
this committee and, as much as I miss each of you individually, 
I have to tell you I am frankly happy to be on this side of the 
dais today.
    I'm here today to introduce to you a friend of all of us, 
Senator Dan Coats, who has been nominated by President Trump to 
be the fifth Director of National Intelligence.
    S. 2645 was introduced by Senators Feinstein, Rockefeller, 
and Bob Graham on the 19th of June, 2002. Then, after two and a 
half years of discussion and debate, the Intel Reform and 
Terrorism Prevention Act of 2004 was passed overwhelmingly by 
both the House and the Senate and signed into law by President 
Bush. That Act created the Office of the Director of National 
Intelligence and placed all of the--it placed the DNI at the 
head of the 16 member intelligence agencies.
    The DNI was charged with directing and overseeing the 
national intelligence program and to serve as an adviser to the 
President and the executive offices of the National Security 
Council and the Homeland Security Council about intelligence 
matters related to the national security of the United States.
    Today I understand that ODNI has somewhere around 2,000 
employees who support the DNI's oversight responsibility for 
the entire National Intelligence Program of some $53 billion. 
Some have recently questioned the structure and effectiveness 
of ODNI, and perhaps after 12 years of the creation of a new 
agency, particularly one as sensitive as this, perhaps a review 
is in order.
    But there is one thing that cannot be overlooked, and that 
is that during these 12 years, with strong leadership from the 
DNI, from a commitment to security by dedicated employees at 
ODNI, and by very good oversight of this committee and the 
HPSCI, ODNI has led an IC that has produced intelligence to its 
customers that has prevented another large-scale attack against 
America on U.S. soil.
    We all know that the world is a more dangerous place than 
ever today. Bad guys are greater in number and more 
sophisticated in their operations than ever before. Thus, the 
strong leadership from the DNI is more important today than 
ever. No one is better suited to give that leadership than is 
our friend and former colleague, Dan Coats.
    As Ambassador to Germany, he was a customer of the IC. As a 
long-time member of this committee, Dan participated in 
conducting extensive oversight of the IC. Now he will be 
providing the intelligence that is to be subjected to that 
oversight. His experience prepares him well for both these new 
roles.
    I have traveled the world with Dan Coats many times, 
visiting our counterparts, our allies, as well as world 
leaders, and, while Dan is for the most part, as we all know, 
very friendly and easy-going, I have had the opportunity to 
observe Dan being very firm and direct in addressing sensitive 
and difficult issues with all of those individuals that we have 
visited and doing so in a very professional manner.
    Dan has been in public service since 1976 when he was 
district director for then-Congressman Dan Quayle. He then 
served in the House of Representatives, the United States 
Senate, Ambassador to Germany, and then again in the U.S. 
Senate. Now, after that remarkable 40-year career, Dan is 
willing to continue to serve his country as the DNI.
    Lastly, let me say that a lot of Dan's strength comes from 
the constant support he has received from his lovely wife, 
Marsha, to whom he's been married for now over 50 years. I will 
leave it to Dan to introduce her, but suffice it to say she's 
been a great teammate. Using a little sports nomenclature 
there, since I still have my Top Secret clearance I get some 
pretty good intelligence from time to time, and one piece of 
intelligence I picked up on about Dan is that he's a huge 
Chicago Cubs fan. Needless to say, he felt pretty good last 
fall.
    But one other thing I found out about him is that the day 
after he and Marsha were married he took her to a Cubs game. 
And his marriage still survived that.
    [Laughter.]
    It is my pleasure to introduce to you Senator Dan Coats, 
and I urge all of you to vote to send Dan's nomination to the 
floor of the Senate quickly and to very quickly confirm him as 
the new Director of National Intelligence.
    Thank you, Mr. Chairman.
    Chairman Burr. Saxby, thank you.
    Dan, if you would stand, please. Raise your right hand. Do 
you solemnly swear to give the committee the truth, the full 
truth, and nothing but the truth, so help you God.
    Senator Coats. I do, so help me.
    Chairman Burr. Please be seated.

STATEMENT OF HON. DAN COATS, FORMER U.S. SENATOR FROM INDIANA, 
       NOMINATED TO BE DIRECTOR OF NATIONAL INTELLIGENCE

    Chairman Burr. Dan, before we move to your statement, I'd 
like to ask you to answer five questions that are standard for 
the committee. We pose them to each nominee who appears before 
us. They just require simple yes or a no answer for the record. 
Do you agree to appear before the committee here and in other 
venues when invited?
    Senator Coats. Yes.
    Chairman Burr. If confirmed, do you agree to send officials 
from your office to appear before the committee and designated 
staff when invited?
    Senator Coats. Yes.
    Chairman Burr. Do you agree to provide documents or any 
other materials requested by the committee in order for us to 
carry out our oversight and legislative responsibilities?
    Senator Coats. Yes.
    Chairman Burr. Will you both ensure that your office and 
your staff provides such materials to the committee when 
requested?
    Senator Coats. Yes.
    Chairman Burr. Do you agree to inform and fully brief to 
the fullest extent possible all members of the committee of 
intelligence activities and covert action, rather than only the 
Chair and Vice Chairman where appropriate?
    Senator Coats. Yes, where appropriate. Yes, where 
appropriate.
    Chairman Burr. I want to thank you very much. We'll now 
proceed to your opening statement. You're recognized.
    Senator Coats. Thank you.
    I have remarks thanking Saxby. He needs to leave and I want 
to jump ahead just a little bit of what I am going to say in my 
written remarks to you, just to thank him, a great friend, 
someone I had the pleasure of serving under on this committee. 
He has left his mark in many, many ways, including friendship 
among his wife and Saxby between Marsha and me. I just want to 
thank him for being willing to come here today and to make 
these remarks on my behalf.
    Chairman Burr, Vice Chairman Warner, members of the 
committee: I'm honored to appear before you as nominee for the 
position of Director of National Intelligence. It was a great 
privilege of mine to have served on the Senate Select 
Committee, this committee, on Intelligence, and to see up close 
the great work done by all the members of the staff and their 
supporters.
    I'll admit, however, that the view is a little bit 
different down here from up there. In fact, I recall many days 
sitting up there, looking to who was ever down here, and 
saying, I'm glad that's not me. Well, here I am.
    I'd like to begin by thanking President Trump for 
nominating me for the position of Director of National 
Intelligence. I'm humbled by his confidence in me and will work 
tirelessly to lead the world's, what I believe and I think most 
believe, the finest intelligence enterprise in the world.
    I would like to also thank Vice President Pence, my Indiana 
colleague and someone that I'm honored to call my friend, for 
his support. I deeply appreciate his faith in me.
    I would also like to acknowledge the work of the previous 
DNI, Jim Clapper, and his Principal Deputy, Stephanie 
O'Sullivan. Their oversight of the intelligence community of 
the past years has been commendable and their guidance in 
helping me prepare for this position has been most helpful. 
They left in place an experienced and a great team which have 
been instrumental in providing a smooth transition for the ODNI 
and for the IC.
    Also, I want to recognize my fellow Hoosiers, who elected 
me several times to the House of Representatives and to the 
United States Senate over the past years. I've always done my 
best to represent them and I'm honored by the confidence that 
they have put in me time and time again. While I will always be 
a Hoosier at heart, if confirmed as the next Director of 
National Intelligence I will represent the dedicated men and 
women of the Office of Director of National Intelligence and 
the broader intelligence community to the best of my ability.
    Finally, saving the best for last, I would like to thank my 
wife Marsha, my children Laura, Lisa, and Andrew, who is here 
today. Together my three children have produced, according to 
Marsha's and my observation, ten almost perfect grandchildren. 
My career in public service is a direct reflection of my 
family's enduring support and love and without their 
encouragement I would not be sitting here today.
    It's been a long road of public service that's brought me 
here before you. After 34 years of service in the House, the 
Senate and as U.S. Ambassador to Germany, I was ready to make a 
transition and planned to move on to a new chapter of my life-
long journey, back home again to Indiana.
    But, as I have learned over those 34 years, life doesn't 
always work out the way you think it's going to work out. When 
called upon to consider this position, I first consulted my 
most important adviser, my wife Marsha, as I examined the 
responsibilities of such a significant office. As a former 
teacher and family therapist, Marcia understands me probably 
better than anybody and the importance of public service. She 
is the rock that provides stability and wise counsel, shoulder 
to shoulder with me in every aspect of my life.
    And while I'm no longer retiring from public service, what 
I am retiring as I sit here today is my policy hat, a hat I 
wore proudly for years as I represented the views of my 
constituents, offered policy proposals, made judgments and cast 
votes in the committee and on the floor. That will be replaced. 
It's retired.
    But if confirmed I put on a new hat, the DNI hat. And just 
as this government transitions to a new leadership, I too hope 
to transition to the role of principal intelligence adviser to 
the President and all the duties that come with that. In this 
new role it will be my responsibility to present the President, 
senior policymakers throughout the Administration, and you the 
Congress with the best and most objective, nonpolitical and 
timely intelligence as you consider policies in the future for 
our great Nation.
    The President and I have personally discussed my potential 
role as his principal intelligence adviser and we both 
recognize that this position is frequently the bearer of 
unpleasant news. But if confirmed, my responsibility would be 
to provide him with the most accurate and objective and 
apolitical intelligence possible.
    In my various conversations with many of you prior to this 
hearing I was asked about how I see the larger role of the DNI. 
Those who know me--and Saxby referenced this, that I'm an avid 
sports fan and never more avid than this past year as I 
celebrated the seemingly impossible accomplishment of the 
Chicago Cubs after 108 years of effort, winning the World 
Series.
    So allow me to compare how I see my role as DNI using, 
well, not a baseball analogy, but a football analogy. On a 
football team the players are guided by a variety of coaches. 
You see them standing along the sidelines and wonder how many 
there are. At one time I counted and I thought there were 17 
and I thought that meant something here relative to the number 
of agencies we look after.
    There's a coach for offense, a coach for defense, special 
teams, one for the offensive line, one for the defensive line, 
one for the quarterback and on and on it goes. But every team 
has a head coach, that leader who walks the sidelines and, 
while not dictating to each coach, assistant coach, how to do 
their specific job, pulls each of these specialists together to 
form a seamless and focused team.
    I see the role of Director of National Intelligence as 
analogous to the head coach role for the intelligence 
community, integrating the IC and leveraging all the expertise 
in our community. We have immense talent resident in many of 
the agencies across the IC. Yet each one contributes unique 
capabilities or expertise that is necessary for a team to be as 
a whole successful: the unique access of our human intelligence 
sources and the detailed analysis from the Central Intelligence 
Agency; the important input from the Defense Intelligence 
Agency; the signals intelligence expertise of the National 
Security Agency, which I believe is second to none; the 
geospatial mastery demonstrated by the National Geospatial-
Intelligence Agency; the acquisition proficiency of our 
satellite specialists at the National Reconnaissance Office; 
the force multiplier the intelligence elements of the armed 
services bring to this team effort; the domestic 
counterterrorism and counter-intelligence work done by the 
Federal Bureau of Investigation; and the specialized skills of 
the IC elements resident within the Departments of State, 
Treasury, Justice, Homeland Security, and Energy.
    Like a head coach, I see it as my job to pull all of these 
team members together under the same game, to produce the best 
coordinated and the best integrated intelligence we can find, 
to make the whole greater than the sum of the parts. And given 
the complicated threat environment that we face today in this 
country and around the world, now more than ever the IC must 
work as a team.
    The threats that we face today are more challenging, 
dynamic, and geographically diffuse than ever before. Allow me 
to address in no particular order what I see as some of the 
most challenging issues we currently face. And I could spend a 
lot of time on this, so I will abbreviate and talk about just a 
few.
    Clearly the rising cyber threat must be highlighted. 
Cyberspace is both a resource and a liability, an increasingly 
connected world that creates opportunities, but also many 
vulnerabilities.
    Not unrelated, I would also highlight the threat of radical 
Islamic terrorism, which continues to be a significant threat 
to the United States and its allies abroad. They're spreading 
their message of fear and hate through cyberspace and 
mobilizing to venues beyond their self-described caliphate.
    China's continued regional activism, including its disputed 
territorial claims in the East and South China Seas is 
troubling and will be a long-term challenge for the United 
States.
    Russia's assertiveness in global affairs is something I 
look upon with grave concern, which we need to address with 
eyes wide open and a healthy degree of skepticism. And North 
Korea's nuclear ambitions and, quite frankly, provocations are 
something the intelligence community needs to be laser-focused 
on.
    The list continues with a diverse set of challenges, 
including those in Iran, Syria, Afghanistan, and other hot 
spots around the world. In order to address these threats, I 
will bring my years of experience on how to execute on a plan 
and bring together teams of people toward a common goal.
    As the Ambassador to Germany from 2001 to 2005, I oversaw 
the activity of more than a dozen Federal agencies at the 
American Embassy. I trust that my experiences coordinating and 
integrating that many different departments and agencies, 
overseeing their activities, leveraging their strengths and 
bringing them together under a single strategy will serve me 
well as DNI.
    As a member of Congress in both the House and Senate, I 
have always had a keen interest, as hopefully you know, in 
ensuring that we are responsible stewards of taxpayer dollars. 
In evaluating Federal programs, I always made it a point to ask 
questions about what works, what doesn't and why. I also 
believed it was important to assess how we establish 
priorities. We must ask ourselves, in a time of tightened 
budgets, what programs are truly essential and which may no 
longer be necessary or only partly necessary or of lower 
priority?
    How does each program support our overall goal or strategy 
and is it duplicative of another effort? I will be looking to 
ask the IC these and many more questions if confirmed as DNI.
    In the vein of efficiency, there has been much discussion 
about the role of the DNI and the Office of the DNI. Let me 
share with you what I have learned in preparation for this 
opportunity. Over the last 12 years since its inception, the 
ODNI has been tasked with a variety of responsibilities, in 
statute, many in statute, in Executive Orders, and in 
Presidential memoranda, along with recommendations coming from 
the 9/11 Commission and the Silberman-Robb Commission on WMD.
    The people supporting these directives are hard-working 
folks from all across the IC. Of note, a significant portion of 
the ODNI's workforce is on rotation from other IC agencies. As 
you know also, NCTC, an organization of 750 people, created by 
the law enacted in 2005, is counted in that number that we 
have, which is less than 2,000 and, by the way, less than a 
third of the number of band members for the armed services. So 
that may put it in some perspective.
    ODNI was established to counter the pre-9/11 stove-piping 
by individual intelligence agencies and ensure collaboration 
and integration across the intelligence elements. The people 
who are supporting these directives are hard-working folks from 
all across the IC.
    ODNI brings together talent from across the community to 
integrate intelligence and does its best to connect the dots--
not just specific dots from the specific agencies and 
specialties. In keeping with my earlier football analogy, you 
can't play a complete game with just a star quarterback and a 
wide receiver. Maybe if you're the New England Patriots you can 
pull that off once in a while, but I don't think that happens 
very often. But even the Pats need a strong offensive line, a 
stout defense, agile special teams and a talented place kicker, 
along with many other players, to be the best in the business.
    Not every player in a football team is going to be the MVP, 
but they are a team nonetheless and everyone on the field plays 
a critical role. And when we the IC succeed, we succeed as a 
team. If we come up short, we fail as a team and we use that 
experience to address it so that doesn't happen again.
    As I looked at the many requirements of the office 
reflected in various laws, orders and recommendations, I have 
been impressed by the office's responsiveness to these many 
tasks within the reasonable resources that they have. Recent 
commentary on the size of the ODNI doesn't mesh with what I've 
seen firsthand and I believe it does a disservice to this 
committee and your efforts to keep the size of ODNI in check, 
which is your obligation and my obligation.
    That said, as I discussed earlier, I believe every 
government agency must constantly review its operations, and 
I'll be taking a look at not only the ODNI, but the entire IC, 
and try to learn how we can do things more efficiently and 
effectively. We don't have a choice.
    Much has been made publicly about the role of our 
intelligence enterprise and how it will fare in the future, and 
I'm encouraged by what I see. With the leadership team in place 
at the IC agencies, I know that this community will continue as 
the world-class intelligence enterprise it is today.
    Before going to questions, let me just share with you the 
early goals that, if confirmed, I will share with the IC. I 
intend to push the IC to be the best it can and not accept the 
status quo when it comes to challenges facing our Nation. I 
intend to ask the IC to be innovative in its approach to hard 
problems and the solutions to solve them.
    I intend to be a champion for the hard-working men and 
women of the IC, be there for them the way they are here for 
all of us. Every day the men and women of the IC are working 
tirelessly on the front lines, often in the shadows, oftentimes 
in very dangerous situations, with a common goal of keeping 
America safe and secure.
    I also intend to work with all of you, as a former member 
of the committee, to assure you that the IC has the support it 
needs to tackle whatever the opposing teams bring our way and 
to ensure that the Congress and this committee have access to 
the information you need to conduct your oversight 
responsibilities.
    I am honored by the opportunity to be here today and I 
thank you for your consideration of my nomination. And with 
that, I look forward to answering your questions.
    [The prepared statement of Senator Coats follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Dan, thank you very much.
    Let me say for members, I'll recognize members in order of 
seniority for a five-minute round. For those that need it, we 
will have a follow-up round. Just for members' timing, we'll go 
from the open hearing immediately when complete to a closed 
hearing for whatever period that might take, and that will be 
in our normal hearing room.
    With that, let me recognize myself for five minutes. Dan, 
you and Marsha had a good gig, you know, retirement. She was 
excited. You were actually really excited--34 years. Now you've 
got--now you've agreed to do a job that many have called 
thankless. Why?
    Senator Coats. I've been asked that question many times at 
each step of the journey, and the response has always come down 
to a sense of duty. When asked to serve your country, whether 
it was in uniform, which I did for two years, or whether it was 
in the Congress or as Ambassador and the run for the Senate 
again after quite a hiatus, and then to say yes to this job, I 
was reminded of the phrase that runs through my mind: I dreamt, 
I believed that life was a beauty, and I think that's what I 
was looking forward to. I awoke and found that life is a duty.
    So I believe, if asked by your leader of your country to 
serve your country again, the answer needed to be yes.
    Chairman Burr. I know you understand well from your 
experience on the committee how valuable raw intelligence can 
be to the oversight process. If asked by committee, will you 
provide the raw intelligence and sourcing behind intelligence 
community finished product and assessments?
    Senator Coats. I absolutely believe that is my 
responsibility and the responsibility of the IC, to provide 
what this committee needs to do its oversight properly.
    Chairman Burr. I noticed in your statement that you 
highlighted, and I quote, ``acquisition proficiency of our 
satellite specialists,'' unquote, at the National 
Reconnaissance Office. I'm sure you probably agree, however, 
that the requirements development process for our satellites is 
in need of significant reform. Will you work with the committee 
to streamline that process to ensure that we can more quickly 
get to the design, build and launch phase?
    Senator Coats. Absolutely. Agility is critical in this time 
of rapid technological change. We see, I believe now, 11 
nations who have the capacity to launch instruments into space. 
I was shocked the other day to read that the nation of India on 
one rocket launch deposited more than 100 satellites in space. 
They may be small in size with different functions and so 
forth, but one rocket can send up I think it was 111 platforms.
    We cannot afford to be behind the curve in terms of 
development of both the offensive and defensive capacities that 
we put up into space. And so, streamlining that acquisition 
process is not something that, yeah, should be done; it's of 
utmost urgency that it has to be done.
    Chairman Burr. There's been much discussion about the role 
that the Central Intelligence Agency played in the detention 
and interrogation of terrorist suspects as part of the RDI 
program. Those detention facilities operated by the CIA have 
long been closed and President Obama officially ended the 
program seven years ago.
    I think the debate space on this subject has become 
confused and I'm certain that the law is now very clear. Do you 
agree that it would require a change in law for the CIA or any 
government agency to lawfully employ any interrogation 
techniques beyond those defined in the Army Field Manual?
    Senator Coats. I absolutely support that. That is the law. 
I might note for the committee, you may--I'll bring it up if 
you don't. When that vote on the NDAA came up, the McCain 
Amendment, I was one of a few who did not support that 
amendment. First of all, I absolutely will follow the law in 
every aspect regardless of what my personal thoughts might be.
    I only had one reservation that I couldn't reconcile in my 
mind. I didn't think no because I didn't think that's where we 
needed to go. I voted no because I thought perhaps we ought to 
at least have a discussion about what do you do in a situation 
when you have the necessary intelligence to know that something 
terrible is going to happen to the American people in a very 
short amount of time and you have the legitimate individual who 
can tell you where that radiological bomb or biological 
material is and you don't have time to go through the process 
that the Army Field Manual requires?
    I'm not saying that should--I'm not saying--I'm not 
trying--as I said, I took off my policy hat. I'm no longer 
engaged in that process. I follow the law that's there and I 
ensure that the IC follows the law, and the answer to your 
question is absolutely.
    But I do think it's at least worth discussion relative to 
the situation that might occur where we might have to, 
hopefully with some special authority, might have to go outside 
that. I don't have the prescription for that. I'm not going to 
advocate for that. I'm simply trying to define what was going 
through my mind when that amendment came up. I thought we 
needed a little more discussion on that. That was on the policy 
side. That hat's gone.
    Chairman Burr. You mentioned in your opening statement that 
you intend to ask the intelligence committee to be innovative 
in its approach to hard problems. I just want to say this, Dan: 
As you know, I've been pushing the community to innovate for 
many years, and I look forward to working with you and 
supporting this endeavor to change an IC community that looks 
forward with innovation as an opportunity, as have many on this 
committee.
    Turn to the Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    Let me echo what the Chairman has said about satellites and 
our whole overhead capacity. I think you were part of many 
vigorous debates that we had to make changes in that field and 
make it much more future-oriented and recognize, as you pointed 
out, both other nations moving in this area and tremendous 
opportunities within the commercial space. So I appreciate your 
answer on that.
    I do want to, as I mentioned in my opening statement, 
though, get you back on the record on a couple of items that I 
think are terribly important. I want to start again with an 
issue of great importance to me and I believe this committee, 
and that is our current investigation into the Russian hacking 
attempts. Do you promise to fully and completely cooperate with 
the committee's investigation of the Russian election hacking, 
including by turning over all requested IC cables, intelligence 
products, and other materials to the committee as promptly as 
possible?
    Senator Coats. I think it's our responsibility to provide 
you access to all that you mentioned.
    Vice Chairman Warner. And do you plan to continue any 
investigations the IC is carrying out or may carry out 
regarding Russia's active measures, especially as they refer to 
interference in elections in our country and, for that matter, 
countries around the world?
    Senator Coats. I think this is something that needs to be 
investigated and addressed. I have not seen the classified 
information on that. As my colleagues may or may not know, the 
day you go sine die here and you're leaving the Senate you lose 
your classification. You have to start over at zero. It took 
much longer than we had anticipated. So I just received it last 
Thursday. I was back in Indiana last week helping to try to 
close things down there to return here. So I have not had the 
opportunity to be briefed on what the classified version of 
that investigation has come up with.
    So in answer to your question, yes, I think this is an 
issue. Russia has a long history of propaganda and trying to 
influence various nations' cultures and elections and so forth. 
It's happening in Europe now as we speak. But they seem to have 
stepped up their game and they are using cyber and they are 
using sophisticated methods now that they didn't have before.
    So I think it's a very key issue that we understand fully 
what has happened and how it's happened and have a full report 
on that. I certainly will make sure the IC produces the 
intelligence access that you need to do your job.
    Vice Chairman Warner. I appreciate your answer.
    Obviously, one of the core functions of the IC--and as ODNI 
you'll have to coordinate this, the analogy back to the coach--
of making sure that you speak truth to power. You've got a 
remarkable background, but you will be the first DNI who was 
not either career military, career intelligence, or a career 
professional diplomat, and again similar to Mike Pompeo, being 
more a political or a policy advocate. How will you ensure that 
the intelligence community will continue to provide unvarnished 
assessments to the President and his Administration regardless 
of any politics?
    Senator Coats. Well, that's our responsibility and that's 
my primary responsibility, to make sure that the intelligence 
community knows exactly what our standards are, what we can do 
and what we can't do. I want to make it very, very clear to all 
elements of the intelligence community that our job is to do 
our job, and our job is not to formulate policy, our job is not 
to influence intelligence in any way for political reasons; our 
job is to present the, as you said, truth to those who make 
policy decisions about where we go. And I will not tolerate--I 
will not tolerate anything that falls short of that standard.
    Vice Chairman Warner. Thank you.
    The Chairman raised the issue around the current law in 
terms of the U.S. Army Field Manual on Interrogation. I would 
simply point out that every day in one form or another the 
military deals with some form or another of the so-called 
ticking time bomb scenario. And I believe General Mattis has 
appropriately pointed out that he would not stray from the Army 
Field Manual because he feels the so-called ``enhanced 
interrogation techniques'' just don't work. I would hope that 
you would echo again what you said in the last, that you would 
commit to following the law and not lead some effort to try to 
change that law.
    Senator Coats. I can absolutely say that I have no other 
obligation except to follow the law on that. I would say, I 
greatly respect the views of John McCain, who not only 
understands this but has been subject to it, and General Mattis 
and his years and years of experience. I respect both of those 
and I intend to be available to work with them and talk with 
them. But the goal is clear, the law is clear, and following 
what that law is is my primary responsibility and I will adhere 
to that.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    Chairman Burr. Senator Risch.
    Senator Risch. Dan, I don't really have any questions for 
you. You sat right here for all the time that you did and I 
know what your decision-making is like, and you and I wrestled 
with some of these tough decisions we had to make and I know 
what your analysis is like and I have absolutely confidence. I 
think it was a great appointment by the President.
    Senator Coats. Thank you.
    Senator Risch. Thank you, and especially thank Marsha for 
agreeing that you could do this job. We really appreciate it, 
America appreciates it. Thank you for your willingness to do 
that.
    Senator Coats. Just a comment. I've been sitting here 
looking at that empty chair. Who died?
    [Laughter.]
    Senator Risch. That's Senator Rubio's chair now and----
    Senator Coats. Oh, I'm sorry.
    Senator Risch [continuing]. I'm not going to comment.
    Senator Coats. I hope he's not watching on C-Span. He'll be 
showing up through the door.
    Senator Risch. I'm not going to comment on the trade that 
was made here. But again, thanks much.
    As you know, they are remodeling your office that's next to 
mine on the fourth floor. Man, it's, it's a mess. I wish you 
hadn't have left, to be honest with you.
    Senator Coats. Were you able to seize a new room on the 
other end there?
    Senator Risch. No, I wasn't. But that doesn't mean I didn't 
try.
    Senator Coats. Well, I could probably try to help you on 
that.
    [Laughter.]
    Senator Risch. Thank you.
    Senator Coats. Thank you.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    It's good to see my former Finance Committee partner in the 
cause of bipartisan tax reform. I was a little baffled in all 
the references to football since Hoosiers are about my game, 
basketball. But we'll talk about that another time.
    In January of 2017, the intelligence community issued a 
written assessment that Vladimir Putin and the Russian 
government developed a clear preference for President-elect 
Trump. Given President Putin's--excuse me. Given Putin's 
preferences, how are you going to actually show our allies, 
with elections coming up, that the intelligence community will 
support them against Russian efforts to influence their 
elections?
    Senator Coats. Well, as I said earlier, Russia has a long 
history of doing this, although they've stepped up their game 
and they're using more sophisticated tactics. As I also said, I 
haven't seen the classified version of this, but I think it's 
publicly known and acknowledged and accepted that Russia 
definitely did try to influence the campaign. To what extent 
they were successful, I don't think we know.
    But following through on that in terms of informing our 
allies of what we have experienced and what they're probably 
going to experience gives them I think the ability to better 
understand what the Russian efforts are.
    I think the transparency of what has happened is necessary 
for the American people so that when they make their judgments 
about future, whether future elections or whatever, they 
understand that there are outside forces trying to influence 
them one way or another.
    I do think this is an issue that ought to be looked at 
carefully and there needs to be, frankly, a response. Vice 
President Pence at the Munich Security Conference--I was not 
there, but I read his remarks--said there needs to be 
consequences for what the Russians are trying to do.
    Senator Wyden. What I hope we'll see is that, because 
people are concerned that what happened to us will happen to 
them, that you will make intelligence-sharing with these 
countries a priority.
    Senator Coats. I think that's already being done, and needs 
to be done.
    Senator Wyden. I wanted to hear it from you. But we'll move 
on.
    You said that if you're confirmed, the reauthorization of 
Section 702 of the Foreign Intelligence Surveillance Act would 
be your top legislative priority. For years, I and members of 
Congress have been asking for an estimate of how many innocent, 
law-abiding Americans' communications are getting swept up in 
this collection. Will you commit to getting this number to this 
committee and the public before reauthorization?
    Senator Coats. Yes, I do. I'm going to do everything I can 
to work with Admiral Rogers in NSA to get you that number. I've 
been told it is an extremely complex process for a number of 
reasons. As I said, without a classification I don't know what 
all these reasons are. I need to learn what they are, but I 
also need to share with Admiral Rogers the need, I think, to 
get this committee not just those numbers, but all the 
information they need with which to make a judgment as to the 
reauthorization.
    The intelligence community believes that the 
reauthorization is extremely important; it's a program that has 
provided a significant amount of intelligence relative to what 
foreign agents or individuals are trying to do to harm 
Americans. So it has layers of oversight at all three levels of 
government. It has been examined by the PCLOB, the Privacy and 
Civil Liberties Oversight Board, and supported by the FISA 
Court.
    But this is something that you will be going through during 
this next year and we want to make sure you have all the 
information you feel you need in order to make whatever 
adjustments that Congress decides to make.
    Senator Wyden. So you'll commit to making sure we have the 
number of innocent Americans being swept up before 
reauthorization. Will you commit to declassifying any secret 
legal interpretations related to FISA as well?
    Senator Coats. Well, that's something that I'll have to 
continue to work with you on. Obviously, I'm going to commit to 
do everything I can to try to get you that number. I need to 
find out why it has taken so long and what are the 
complications in getting that number. But I think it's 
important for the committee----
    Senator Wyden. This is declassification as well as the 
number.
    Senator Coats. But on the declassification, as long as it 
doesn't--I mean, the declassification process is in place so 
that we can, if there are sensitive sources and methods that 
can be exposed, that have negative consequences to our 
intelligence agency, we obviously have to classify those. But 
those that we can declassify, for the needed purpose, I think 
we need to do.
    Senator Wyden. Mr. Chairman, if I could just take a few 
more seconds, as you did.
    My point is--and I appreciate what Senator Coats is trying 
to say here--A, we need that number. We have sought it for 
years and years. More and more Americans are getting swept up 
in these searches. We're trying to legitimately go after 
foreign targets that are a threat to us, but as 
telecommunications systems become globally integrated we're 
getting more and more law-abiding Americans swept up.
    So we need that. We need declassification. I look forward 
to working with you.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Welcome back, Senator Coats. We're delighted to see you.
    As the author, along with former Senator Joe Lieberman, of 
the 2004 law that created the Director of National 
Intelligence, I have a special interest in your nomination. I'm 
delighted that the President has chosen you for this important 
position and I believe that he could not have made a better 
choice.
    Senator Coats. Thank you.
    Senator Collins. I want to talk to you about the importance 
of the DNI serving, as the law provides, as the principal 
intelligence adviser to the President. I'm concerned about 
reports that the President is changing the composition of the 
so-called Principals Committee on the National Security Council 
by adding his chief strategist and downgrading, or so it 
appears, the role of the Director of National Intelligence.
    How will you ensure that you can fulfill the statutory 
mandate to serve as the President's top intelligence adviser at 
National Security Council meetings if this proposed 
reorganization goes forward?
    Senator Coats. That's a question that I have been 
addressing directly with the President and his staff. I was 
informed that the drafting of that executive order was not 
intended to not have the Director of National Intelligence as 
part of the Principals Committee. It was drafted before--by 
President Bush's administration, before the DNI was even stood 
up. And so they took language from that, never intending not to 
have the DNI be a part of the Principals Committee.
    I have been reassured time and time and time again from the 
President to his advisers that I'm welcome and needed and 
expected to be a part of the Principals Committee. It's 
essential to the process of being in a position to know what is 
moving on up to the National Security Council relative to the 
team.
    I have great confidence in General McMaster in terms of his 
putting together a team that he knows will be the most 
effective NSC team that he can. And I think relative to who is 
added or not added to that team will be under his jurisdiction 
and that, as I said, I have very great confidence that he is 
going to put that team in place that he thinks can best serve 
the President.
    Senator Collins. Thank you. That's very reassuring, since I 
can't imagine having the Deputy DNI on the Deputies Committee 
and then not having the DNI on the Principals Committee, which 
meets to resolve issues that are of the highest level that the 
deputies could not resolve. And surely the President should 
want to have his principal adviser on intelligence matters 
present at those very important meetings.
    Senator Coats. And I was ensured that that was the intent 
and the other was just a mischaracterization of the Executive 
Order.
    Senator Collins. Thank you.
    A second issue that I want it raise with you is that 
President Trump has asked an individual who runs a private 
equity firm to lead a broad review of the U.S. intelligence 
agencies. As far as I can tell, this individual does not have 
national security experience, nor does he appear to have 
experience in intelligence.
    As you're well aware, the President can already receive 
independent advice from the President's Intelligence Advisory 
Board, which can provide outside advice regarding a full range 
of intelligence activities. So to have this additional review, 
particularly from an individual who does not appear to have the 
requisite background, appears to be a textbook definition of 
waste and duplication.
    In addition, in your statement you talked very eloquently 
about the responsibility the DNI has to bring the intelligence 
agencies together to review, to make sure they are working 
effectively and efficiently. My concern is that an outside 
review by an individual without experience can result in 
recommendations that are essentially armchair quarterbacking of 
the leadership of the intelligence community.
    Do you view it as your job to review the operations of the 
intelligence community?
    Senator Coats. I do, and I've made that clear to the 
President and to his advisers, that that is where I stand. 
Clearly, as I said in my opening statement, every agency needs 
to consciously review itself, particularly at a time when 
budget resources are restrained--well, at any time, whether 
they are or not. We want an efficient and effective government, 
streamlined to efficiency.
    But in terms of looking at that and assigning someone to 
that position, if it involves the intelligence community, I 
think that it needs to be under my authority. And I've made 
that very, very clear. And I believe that's what the case will 
be.
    Now, I know Mr. Feinberg personally. I think he's a 
patriot. He wants to serve his country and he brings many 
talents to that. But I do not think that translates into 
reporting to the White House and not being under the control of 
the Director--excuse me--the national security office. Sorry, 
the DNI. I ought to have that down pretty well, don't you 
think, the DNI?
    So I want to just assure you that that's an issue that I 
have been engaged in and I have full confidence that that's the 
way it will turn out.
    Senator Collins. Thank you very much and I wish you all the 
best.
    Senator Coats. Thank you.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Welcome back, Dan.
    Chairman Burr. Thank you.
    Senator Heinrich. I want to go back to a couple of--some of 
the ground that Senator Collins covered. I think most of us 
agree with your analogy. We want you to be the head coach. 
We're a little concerned that sometimes the owner of the team 
might rather hear from the offensive coordinator right now. So 
some of these things with regard to the executive order, with 
regard to Mr. Feinberg of Cerberus, the appointment of the 
Director of the CIA to the committee, they open a lot of 
questions for how you're going to maintain the DNI's leadership 
role and the structure that has served the intelligence 
community so well, after a period when we really realized 
stovepipes do not help American national security.
    So I want to make sure I understand what you said to 
Senator Collins. Do I understand that the Executive Order that 
came out, that seemed to remove the DNI from the Principals 
Committee, was a recycled Bush administration Executive Order 
that just didn't reflect current law and historical precedent 
from 2002?
    Senator Coats. That's my understanding. I wasn't there, of 
course, at the time, in the writing of that. I had no 
participation in that. That is my understanding. I cannot fully 
say that that's what exactly happened, but what has been told 
to me is that the intent was never to not have the DNI as part 
of the Principals Committee, and they reassured me very quickly 
that, look--they also were thinking there may be occasion when 
the committee is meeting dealing with something that doesn't 
involve intelligence, perhaps a flood or something like that.
    Senator Heinrich. I don't think we need to be worried about 
that sort of a situation. I think we do want to be reassured--
one, I'm reassured with regard to your position. I think that's 
very important. I am not reassured as to the process that these 
Executive Orders have been going through, given what I see as a 
pretty enormous omission.
    Let me move on to another issue with regard to encryption, 
and we've had this conversation a lot when you were here on the 
committee. It's something you're going to have to deal with, a 
very evolving situation moving forward. NSA Director Admiral 
Rogers called encryption ``foundational to the future.'' I 
think Secretary Carter called encryption ``absolutely 
essential'' with regard to the Department of Defense, and he 
said, quote, ``I'm not a believer in back doors or a single 
technical approach to what is a complex and complicated 
problem. I'm just not. I don't think that's realistic. I don't 
think that's technically accurate.'' End quote.
    Other former IC leaders--Michael Hayden, Mike McConnell, 
Michael Chertoff, Mike Morrell--a lot of Michaels--have all 
made public statements of strong support for strong encryption 
and unequivocal opposition to so-called back doors because of 
the risks inherent to them.
    Do you believe that strong encryption is an essential tool 
for the American public and private sectors to be able to 
protect personal, business, financial data from hackers, 
criminals, and malicious governments?
    Senator Coats. Yes, I do, and I think it's important, 
obviously, for the government, all government entities. We're 
all aware of the attempts to break into systems that deal with 
our defense, deal with our financial resources, deal with any 
number of things. So encryption has a very positive effect and 
is needed.
    We also have, though, the responsibility of trying to 
understand what those who are not using the Internet for the 
right purposes--we used to be separated by two wide oceans and 
felt we were pretty safe and we could always be ready for 
something that was coming our way. Now, in fractions of a 
second someone can hit a key and cause incredible damage to the 
United States in many, many ways, all across the spectrum.
    So there are those occasions, I think, when we need to at 
least think about, when we have legal authority to address a 
situation where we need to get information, cooperation from 
the public sector would be helpful. I think that conversation 
has been going on, needs to continue going on.
    You know, the CEOs of companies that are making devices and 
guaranteeing their buyers encryption, they worry about their 
families, they worry about their communities, they worry about 
attacks on the United States. So once again, I'm not in a 
policy position to decide how this happens, but I do think that 
it needs to be an ongoing discussion among policymakers in 
terms of what legal authorities. In the end, we follow the law, 
whatever it is, regardless of our personal opinions.
    Senator Heinrich. Thank you, Chairman.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Well, it's great to have you back and great 
to have been on this committee with you and know that you have 
an important and in many ways unique sense of these issues. But 
also, we've watched as a committee and as a Congress the DNI 
operation grow beyond what at least I initially thought it 
would be. And I'm wondering, as you've had a chance to think 
about this, why you think that has happened and how much of it 
is a result of the Congress taxing the DNI with specific 
assignments rather than letting the DNI decide which agency 
should have that assignment?
    Give me a sense of how you think that's developed and how 
your review of the other agencies would also involve the review 
of what the Director of National Intelligence and that entire 
operation under your daily management would look like?
    Senator Coats. Well, I've been asking the same question of 
the IC in regards to this. I have found that statutory 
requirements, Executive Orders, directives, have added 
functions to the DNI that are mandated by the Congress or by 
the Executive Branch.
    Also, I think people don't understand that NCTC is a part 
of the DNI. They have about 750 employees at the NCTC. I don't 
hear anybody calling for not having an NCTC, but by statute 
under IRTPA it was made part of the DNI. We have rotations that 
come. I think about 40 percent of the people there are rotated 
through.
    It's much like what the military has tried to do with their 
joint exercises and so forth. They want Navy to serve with the 
Army at a certain point and the Air Force at a certain point so 
that they are familiar with the whole and can perform better 
service, they're not stovepiped. And it's somewhat similar to 
what the whole joint efforts under Goldwater-Nichols was trying 
to accomplish.
    So it's a little more complicated than just more than just 
the number, oh, there's 1,750 people out there, why do we need 
that many? It's those two factors that played a major role in 
that.
    Having said that, it doesn't mean that we can't take a hard 
look at that: How can we streamline? How can we be more 
effective? But simply taking a number of people here and 
putting them over there really doesn't change the dynamic if 
the reason that they're here is for integration processes, 
coordinating processes, and so forth.
    So to finish my remarks, simply, if you're going to 
integrate information that is coming from 16 other different 
agencies, you have to have members there from some of those 
functions that know what's coming from their function so that 
they can be part of the integration solution.
    Senator Blunt. And do you think the Congress has rightly or 
wrongly created all those specific assignments for the DNI, as 
opposed to either letting the DNI determine who had the 
assignment or making an assignment to one of the specific 
agencies and knowing that the DNI would be--have oversight?
    Senator Coats. That's probably a good question to ask 
Senator Collins. I know her initial intent, along with Senator 
Lieberman and others that put this together, had to work 
through the process of becoming law. I read an interesting book 
about what that two and half years was like in order to achieve 
that.
    Many times we have a vision here and we have our staff 
write it up into law and from the starting point to the ending 
point we don't sometimes recognize it when it comes back with 
all the decisions that have been made make adjustments so 
certain entities have this authority and that authority. So 
there is some fog in the air about the exact authorities of the 
DNI and the responsibilities that are left to other agencies. 
Clearly, an overseer, someone who has some defined authorities, 
but not necessarily the authority to simply go into every 
agency and deal with their operations.
    Senator Blunt. I would just conclude by saying on this 
topic, I think nobody is in a better position to work with the 
relevant committees of Congress to try to go back now and take 
a look at that law, what it was intended to do, whether it 
really has achieved what it was intended to do, and the advice 
you might have as you have a chance to look at this from both 
perspectives of what the next DNI might be able to deal with 
because of reforms and efficiencies that you built in while 
have you this job. And I look forward to you being part of this 
committee's activities for the next several years.
    Senator Coats. Thank you. Well, it's 12 years on and it's 
probably time to take a look at it and say, as I said, what 
works, what doesn't and why, and what changes can we make to 
make it be better.
    Senator Blunt. Exactly, and I'd like for that to be one of 
the things that you determine is going to be one of your major 
goals.
    Senator Coats. That is one of my major goals.
    Chairman Burr. Senator King.
    Senator King. Thank you.
    Senator Coats, I would first take issue with your analogy. 
I can assure you that the assistant coaches of the New England 
Patriots would be astonished to think that Bill Belicheck is as 
passive as you would portray him. You've got to be more 
aggressive. This isn't a passive role, Senator.
    Let me move on to my only concern about your nomination. 
You're one of the most likable, affable, easy-going people I've 
ever met. I liked traveling with you and working with you on 
this committee. I'm not sure likability and affability are the 
qualities I want in this position. I want somebody who is 
crusty and mean and tough, because you're riding herd on 17 
agencies that will always want to be going in different 
directions and you're going to be reporting to a President who 
may or may not want to hear what you have to say.
    Can you assure me that, not only are you changing hats when 
you go into this job, but you're going to be hard in terms of 
your execution of this I think the second most important job in 
the United States Government right now?
    Senator Coats. Well, achieving the level of Bill Belicheck 
may be tough. I haven't seen any other NFL coaches that achieve 
the level of Bill Belicheck.
    Senator King. In attitude and success.
    Senator Coats. But I hear exactly what you're saying, and I 
think the office demands it and I think the times demand it. 
Clearly, we are in a situation--we're not in a passive 
situation from a world threats standpoint. It has reached the 
level that we can't afford not to go at this with everything 
that we have.
    Senator King. To put a point on this, the three most 
serious foreign policy mistakes in my lifetime are the Bay of 
Pigs, Vietnam, and the invasion of Iraq. All of those were 
based upon configuring intelligence to meet the desires of the 
policymakers. That's the common thread that runs through.
    The pressure on you to try to meet the demands of the 
policymakers--and it just happened on Saturday when allegedly 
the Trump Administration, the White House, put pressure on the 
Department of Homeland Security Intelligence and Analysis to 
come up with a justification for the travel ban. Rather than 
asking, what's the story on people from these countries, they 
gave them the answer and said, give us the evidence.
    Have you heard about this incident? It just was reported 
this past weekend.
    Senator Coats. I read that in public media, yes.
    Senator King. Does that concern you?
    Senator Coats. As I said in the beginning and as I will say 
frequently to both the President and to the Executive Branch, 
you need to fully understand my role. My role is to provide you 
with the intelligence to formulate policy, not formulate 
policy, not be a spokesman for any political decisions that are 
made.
    So yes, I have made this clear. I will continue to make 
this clear. I cannot go outside the bounds of my authorities, 
and I believe those authorities require me to do nothing less 
than what I just said.
    Senator King. A quick yes or no question: Do you need this 
job?
    Senator Coats. No, I don't need this job. One of the 
benefits of being in your generation together, I think, as I 
look at the panel here----
    Senator King. I don't know what you're talking about.
    [Laughter.]
    That's the right answer.
    Senator Coats. You and I go back all the way to the Bay of 
Pigs and all the way to Vietnam. And if we didn't learn 
anything from these incidents, then shame on us.
    Senator King. That's right, and I want you to, because 
there is going to be a moment when you're going to have to say: 
I don't need this job, because I'm being asked to do something 
that I shouldn't do. I'm not predicting that that will happen, 
but very well that could happen.
    It's happened, and this isn't about this President or any 
other President. It's happened, as we've both pointed out, over 
the past 40 years.
    A couple of follow-up questions on the National Security 
Council. I don't know where the language came from, but the 
language says that where instances--you're invited where 
instances pertaining to the DNI's responsibility and expertise 
are to be discussed. I can't imagine a situation where that 
wouldn't be the case.
    I'm worried that you said, well, if it's a problem we'll 
fix it. It should be fixed now. You shouldn't be welcome at 
these meetings; you should be part of these meetings. I would 
urge you to talk to the White House about this Executive Order 
that was issued barely a week after the President was in 
office, about correcting that fault.
    The second fault in that was to put Steve Bannon, the 
President's political adviser, onto the National Security 
Council. I understand that President Bush forbade Karl Rove 
from even going to National Security Council meetings, let 
alone being on it. And I hope you will go back and take that 
message.
    Admiral Mullen says this is politicizing intelligence or 
national security from the beginning, and I think that's a very 
bad practice.
    Senator Coats. Thank you, Senator. I'll take that message 
back to the President.
    Senator King. Thank you.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you.
    It's great to see you, Dan. Just to Senator King's concern, 
I sat next to you here for a couple of years and I found you to 
actually be quite an unpleasant human being on many occasions.
    [Laughter.]
    Senator Rubio. Of course, everyone who knows you knows that 
that's not true. But we're fortunate and grateful at your 
willingness to continue to serve our country.
    There are three topics I wanted to touch. The first is kind 
of this unusual situation that we now have regarding 
counterintelligence in particular, and it's the sort of synergy 
that combines the strategic placement of illegally accessed 
information, the use of media organisms under the control of 
foreign governments, RT and Sputnik and the like. There's 
always been an element of propaganda involved in politics, but 
the sort of synergy between propaganda, counterintelligence, 
for purposes of interfering, influencing, and manipulating, 
directing elections, policymaking in foreign countries, I think 
has reached a level in many places in Europe and I believe in 
the United States that's unique.
    I just wanted to--and you may have touched on this earlier, 
but this is a challenge that is perhaps a bit different from 
what we have been dealing with in the intelligence community 
over the last decade, certainly since post-9/11. That is, not 
just that foreign governments have intelligence agencies that 
target us, but that in fact they strategically use information 
potentially to have an influence over our policymakers, our 
policymaking, and potentially even our elections.
    So that new dynamic; how do you view the multiple different 
agencies kind of synergizing all of that to confront this new 
element that I still think we're grappling with fully 
understanding?
    Senator Coats. I did mention earlier that the advances in 
technology have upped the games of those who want to use these 
techniques, and the connection of the world and the links 
through the worldwide Internet have been marvelous advances for 
mankind, but have extreme vulnerabilities also and can be taken 
advantage of.
    I think we need to educate our public to the fact that 
these types of things are happening, so that in their factoring 
in terms of their decisions relative to government and 
government's functions and elections and so forth they're well 
aware of the fact that they can't just simply believe 
everything they hear and everything they read, that there are 
these efforts out there to undermine who we are as a country, 
undermine some of our values, cause us to lose confidence in 
our government's ability to protect our privacy, et cetera.
    So I do think that requires much more agility, much better 
means of not only intercepting these, but putting not only the 
defenses in place, but offenses, a response, so that those that 
are doing this know there's a consequence to what they're 
doing.
    Senator Rubio. I would just add that, given the fact that 
this kind of touches upon the intelligence community so 
heavily, there's always this tension between allowing the 
American public and, for that matter, our allies to understand 
what's happening and yet allowing the intelligence community to 
continue to work in ways that do not divulge more than is 
necessary. That tension is always there and I think it's an 
important part of the element that we should take into account 
moving forward.
    I really do think in many ways one of the greatest defenses 
towards any efforts to interfere with our political process 
from outside the country would be to allow the American people 
to be aware as much as possible of what those efforts entail, 
so that they understand the source and the motivation behind 
things that they may be reading, seeing, et cetera, throughout 
the process.
    So I'm glad to hear you mention that. I think that will be 
a big challenge for the entire intelligence community and I 
think you'll have a key role to play in synergizing that across 
all the difficult agencies that serve us in that regard.
    The second issue I want to talk to you about is our 
detention policy. I'm troubled by the direction it's taken. We 
know for a fact and you've seen in open source reporting that a 
number of former Gitmo detainees have gone on to rejoin the 
fight against us. American citizens have been killed. Others 
are still out there fighting against us now.
    What is your view of our detention policy at the end of the 
last Administration and do you have any views now about what 
you would advise the President in terms of how we should--what 
our detention policy for terrorists and enemy combatants should 
be in the new Administration?
    Senator Coats. I've had the opportunity to travel with 
Senator Burr and other members of the committee, with Senator 
Burr leading our contingent and before him Senator Chambliss 
and Senator Feinstein. These questions have been asked of 
intelligence agencies in terms of what has happened to those 
that have been released from Guantanamo? Are they running a 
Starbucks in Yemen or have they rejoined the fight?
    A significant percentage of those have rejoined the fight. 
So I know we have a high-value target individual team in place 
that can look at this situation and make these determinations 
as to who may or may not be released. But this is an ongoing 
conflict and the last thing we want to do is tell the American 
people that we're sending somebody back in to become once again 
our adversary.
    So I've been supporting that detention, which I think is 
done in a lawful way, done in a humane way. But simply sending 
everybody back home I don't think is a solution to the problem.
    Senator Rubio. I know I'm out of time. Just a point of 
clarification. Number one, I believe the last Starbucks in 
Yemen closed last week and so that--but on a serious matter, 
Robert Levinson, who is a former FBI agent, disappeared from 
Kish Island, Iran, in 2007. He is believed widely to be held by 
Iran, by elements of the Iranian government. His family are 
from Florida and I would just ask in your new role that you 
pledge to do everything possible to help locate Bob and help 
bring him home.
    Senator Coats. Yes, in my closing months in the Senate I 
was also advised of someone else who was put in a similar 
situation, this one in Turkey. And our office has been working 
to try to determine what the basis of this was and to get him 
released. So I'm well aware of the situation from a personal 
basis in terms of our needing to address these issues.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you again, Senator. It's great serving with you, Dan, 
and great to have you back.
    Senator Coats. Thank you, Joe.
    Senator Manchin. That being said, there's been some tough 
questioning here and there's a lot of concern. We're in a 
difficult time and period of our life with this Intel 
Committee. I'm new to this committee, so I'm learning it as 
quickly as I can. But I think people are depending on us. I 
know that Senator King and myself and Senator Harris and I, 
being the newest members on this side of the aisle, we're 
trying to get up to speed as quickly as possible.
    I think I would first ask--I think the question was asked 
you by our Ranking Member about would you be able to turn over 
the information and make sure we had access to the information. 
You said that was your intent. Do you have the authority to 
make--if we're getting what we consider slow-rolled, do you 
have that authority to make sure that we're able to have that 
access, whether it be any one of the 17 agencies, that we need 
to conduct a full investigation?
    Senator Coats. Yes. I hope I said more than intent. That's 
my authority. That's my obligation.
    Senator Manchin. Do you have the----
    Senator Coats. Timely is part of the equation here and it 
needs to be given to you completely, timely, unvarnished.
    Senator Manchin. So we can count on that, basically?
    Senator Coats. Yes, you can.
    Senator Manchin. Right now a lot of people are frustrated.
    Senator Coats. Yes, you can.
    Senator Manchin. I want to make sure.
    Senator Coats. I have no intention of holding anything back 
from this committee, the access to this committee that they 
need.
    Senator Manchin. Senator, the other question I would ask is 
that--when I look back at 2004 when the DNI was created, what 
do you think the purpose was? Who lost faith? Who lost 
confidence? Why did we think we needed a DNI to be formed? Have 
you evaluated that?
    Senator Coats. Well, I have done some evaluation and some 
reading and some discussions with the members, some of those 
who were part of that process from the beginning. I served both 
with Senator Lieberman and, obviously, with Senator Collins, 
and I know their role in this, and others.
    Senator Manchin. We didn't reduce any of the 17 agencies. 
We still have the same 17 agencies.
    Senator Coats. What was happening, there was the so-called 
stovepipe process. They weren't sharing information with each 
other the way that they should. There was no way to integrate 
it. Everybody put out their own. Some of it was dismissed, some 
of it, well, we have more faith in this agency than that 
agency. You didn't get a complete picture.
    I kind of view this as building, making a puzzle, and 
you've got 17 pieces that all need to come together. You want 
the input from those 17 to be put in the right place, but you 
want that all to come together into one picture. There will be 
some dissenting views in there, yes. If there are dissenting 
views from this agency or that agency or the different views 
about the confidence level of what the intelligence is, you 
need to know that.
    But what the committee needs to know and what the President 
and the customers in the Executive Branch need to know is that 
to the best of our ability this integrated intelligence is 
provided to you by all the 17 agencies pulling together every 
little piece of that puzzle.
    Senator Manchin. Do you think the 17 agencies believe that 
you have the authority or the DNI has that authority to remove 
them, remove that director or take it extremely strongly by the 
President for that person to be removed if they're not doing 
their job?
    Senator Coats. Well, taking to the President, these are 
Presidentially appointed positions.
    Senator Manchin. What I'm saying is, do they look at the 
DNI as having that authority, that really that's who they're 
answering to, that's their boss?
    Senator Coats. Well, there's collaboration authority and 
there's other authorities. We had a discussion of that a little 
bit earlier about the initial views of those who are putting it 
together or for various reasons modified it as it moved through 
the legislative process, or with the Executive Branch coming in 
and making recommendations.
    Senator Manchin. Do you think in that position, the DNI, 
that with all of the additional news media, the 24-hour news 
cycle we have, the social media, everything that's going on 
today on the internet, the so-called ``fake news,'' if you 
will, do you think the DNI has a responsibility to speak up and 
say, this is a bunch of hogwash, there's no credibility to this 
whatsoever, for the American public to figure out what's real 
and what's not real?
    Senator Coats. Well, we have a role, a role to provide 
intelligence. But making decisions relative to policy--and we 
can make analysis to provide to you, to provide to our 
policymakers. But it was mentioned earlier, truth to power. Our 
job is to provide the truth, and power goes to those people who 
are in a position to make those determinations, make policy, 
make corrections, make laws, et cetera. That's what we bring to 
you, not that--we're not spokesmen.
    Senator Manchin. You don't believe that basically, on the 
so-called New York Times article, that whether, what side 
people might be on--that there should be any clarity coming 
from the DNI?
    Senator Coats. We provide that information. I don't 
envision myself as going on CNN every night and saying, here's 
what we've done. I envision providing that information to the 
policymakers to let them make that decision.
    Senator Manchin. Dan, one final question. Many leaders have 
identified Russia, China, Iran, North Korea, and ISIS as the 
top security threats to the United States. Have you chosen one 
who you think is our top security threat?
    Senator Coats. It's kind of an ``all of above'' category 
here, I think, given the diversity of threats that we have. I 
mentioned earlier on that cyber has moved very quickly, I 
think, to the top in terms of--because it affects almost 
everything we do in this country in terms of people's safety, 
in terms of financial, commercial, our national defense, 
intellectual property, and on and on you can go.
    Senator Manchin. Is one most capable that you're concerned 
about?
    Senator Coats. You know, I would like to take that to the 
closed session. I have some strong thoughts about that, but I 
think that could potentially turn into something we need to do 
in the closed session.
    Senator Manchin. That's fair. Thank you so much, and thank 
you for your continued service----
    Senator Coats. Thank you.
    Senator Manchin [continuing]. And willingness to serve.
    Senator Coats. Thank you.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Dan, it's absolutely great to see you 
again. I'm sure you're enjoying being on that side of the desk, 
because you can't get up and leave when you need to or be able 
to come in and out or take a quick phone call. You're stuck 
right there.
    Senator Coats. Yes.
    Senator Lankford. So it really is great to see you.
    Senator Coats. Thank you.
    Senator Lankford. I do want to follow up on a conversation 
that Senator King had with you. I would say I had the same line 
of questioning for you that I just want to be able to close the 
loop on. You're one of the nicest people I've ever met.
    Senator Coats. Thank you.
    Senator Lankford. And that is to your credit, not only to 
your faith and your family, but the people you've served for a 
long time. But I really want the DNI to be able to be tough 
when it requires to be tough and to be clear when it's time to 
be clear, because the policymakers around you need clarity, 
need straightforward facts, need the facts that they know that 
they can trust. And we'll deal with nice in the hallway when we 
can grab a bottle of water together and get a chance to chit-
chat.
    But I need to hear a clarification from you again that when 
the moment comes and it's crunch time you can be as tough as 
you need to be.
    Senator Coats. James, I think that's--Senator. I'm sorry.
    Senator Lankford. ``James'' is always good.
    Senator Coats. You said such nice things about me, I just 
fell into our friendship.
    Senator, I absolutely understand that this role demands 
someone who can stand up to the pressures that will be placed 
upon him, political pressures. When you have 17 agencies, not 
everybody's going to agree in terms of the way to go forward, 
and there needs to be a Director who can assert that authority.
    I've been blessed, I have Mary Scott who backs me up with 
good wise counsel. But I recognize the need for that. Given the 
situation that we are facing worldwide in terms of these 
threats, we don't have time just to be the nice guy. We've got 
to go after it.
    Senator Lankford. I have often said to people in my state 
that challenge me for being too nice at times, I say I can say 
``No'' with a smile still, but still be able to stand by it. 
And I know you can as well. But that'll be an area you're 
pushed on.
    But I'll also say to you that some of the pressure won't 
just be from the policymakers around you. There is a tendency 
with all of us in the political world, as well as with the 
intelligence community, to somewhat chase the priorities of the 
headline, of the latest news story, and that becomes the IC 
priority.
    For many in the IC community, they saw the cyber issue a 
long time ago. The media is only recently catching up to the 
real threats that we face on cyber. So one of the things that 
we will need from you in the days ahead is to keep the agencies 
on focus to where the real threats are, not just where the 
headlines are. A good for-instance of this is, it's amazing to 
me how little we talk about narco-terrorism any more and we 
have tens of thousands of people who die through either the 
trafficking, the individuals, of drugs, or from overdoses as a 
result of that, that are Americans dying all the time. It's one 
of the constant threats that we have, but the news doesn't talk 
about it much any more and so it somewhat drifts to the 
background.
    You have the responsibility to be able to make sure it 
doesn't drift to the background among our intelligence 
community, that we stay on focus on the threats that we face 
all the time, and that when the issues come up we're on top of 
them.
    Let me ask a strange question for us. When we get a chance 
to visit together, will we still be able to talk about the 
``Coats Waste of the Week''? Will you still be focused in on 
``I found an area that we need to resolve''? You know as well 
as all of us do on this dais that at times working with the 
Administration, if there are things that need to be fixed, 
there is some other entity that sees it, but the practitioners 
in the agency actually see the problem. We need help in the 
oversight part of it, that when you see something in any of the 
17 entities or your own office, can you help us be able to see 
some of those things as well, to be able to know what to fix 
legislatively?
    Senator Coats. Yes, I intend to do that. I went with some 
passion every week to the Senate floor 55 times to address a 
``Certified Waste of the Week.'' I've already looked around a 
little bit and said maybe that fits the ``Waste of the Week'' 
category, let's investigate that. Obviously, I would have to be 
confirmed before I could start that process. But I'm committed 
to doing that.
    I want to just reflect basically on what you said about the 
narco-terrorism. You and I have talked about this personally. I 
think each of us has experienced talking to families who 
tragically have lost a member of that family because of--maybe 
a 17-year-old going to a party and somebody says, ``Here, try 
this,'' and they end up in the hospital and many of them 
perish.
    It is a scourge that is cutting across every part of our 
country. We have it in Indiana. You have it in your state and 
every one of our members has it. It is something that can't be 
ignored or pushed aside. It is undermining the very essence of 
this country and it's affecting families and communities in 
ways that haven't made the headlines as much as they should. 
But it has to be a component of this, and intelligence does 
play a role in terms of how these things are brought into our 
country or within our country manufactured.
    Senator Lankford. Thanks, Dan.
    Chairman Burr. Senator Harris.
    Senator Harris. Senator Coats, I enjoyed our time together 
and thank you for that.
    Senator Coats. Thank you. I did also.
    Senator Harris. I noted many of my colleagues have raised 
the issue of the restructuring of the National Security 
Council. I'd like to talk about that a little bit more, because 
I'm sure you agree it's critically important as it relates to 
what we need to accomplish in terms of national security.
    As has been mentioned, the President's Executive Order was 
issued on January 28th, which basically put the Director of 
National Intelligence in a place where he or you, if confirmed, 
would not be included necessarily in the National Security 
Council meetings and the Principals Committee meetings. If 
confirmed as the Director of National Intelligence, do you 
believe that it's critically important that you have a 
permanent role in those meetings?
    Senator Coats. Yes.
    Senator Harris. And have you requested of the President or 
any member of his Administration that that Executive Order be 
modified?
    Senator Coats. We have sent them information as to how to 
modify it. It has not been addressed yet, but I have been 
reassured over and over and over by the President and his staff 
that absolutely that's what their intent was and they expect me 
to be there.
    Senator Harris. Have they given you a date of when it will 
be modified?
    Senator Coats. They have not given me a date.
    Senator Harris. Is it going to happen before your 
confirmation?
    Senator Coats. They have not given me a date and I can't 
answer--I do not know of a particular date.
    Senator Harris. Now, my understanding is that the CIA 
Director was--that the Executive Order was modified on January 
30th.
    Senator Coats. Correct.
    Senator Harris. And it was modified to include the CIA 
Director; is that correct?
    Senator Coats. That's correct.
    Senator Harris. Okay. So you mentioned earlier that the 
Executive Order was basically something from the Bush era that 
had been resuscitated. But it has been modified since it was 
issued; you agree to that, is that correct?
    Senator Coats. I think it was the 30th. I need to----
    Senator Harris. Well, it's been modified since it was 
issued under this Administration?
    Senator Coats. No, it has not been modified.
    Senator Harris. So when was the CIA Director added to that?
    Senator Coats. That was part of the original.
    Senator Harris. No, it wasn't.
    Senator Coats. Okay. It was a press conference statement. 
It was not an action that was taken.
    Senator Harris. Okay, because I have a copy of that here 
and it was added back to the National Security Council. So the 
point is that this Bush-era document has been modified since it 
was issued to include the CIA Director, but it did not put back 
in DNI.
    Senator Coats. I may be wrong in saying it was a Bush-era.
    Senator Harris. You indicated that that's what the 
Administration told you.
    Senator Coats. I said my understanding was that language 
was taken from a similar Executive Order issued under the Bush 
Administration and that order was issued before there was a 
position of DNI. And I have been told verbally that the intent 
was not to leave the DNI's position off, just that someone 
drafting that language didn't realize that that language didn't 
include the DNI because there was no DNI at that particular 
point in time.
    But the bottom line is, the bottom line is is that I have 
full, 100 percent confidence that I will be part of the 
Principals Committee. Yes----
    Senator Harris. Well, my concern is not about--on this 
point, not about your qualifications. My concern is about what 
environment you're walking into, and in particular whether, if 
confirmed, you will actually have a seat in that body. And if 
the Administration is telling you that it was some document 
that was issued in a time gone by, we know that it has since 
been modified to include the CIA, it did not include the Joint 
Chiefs, and it has not replaced the position for which you are 
here to testify.
    So my concern is that there has been no indication or 
assurance given that you will, if confirmed, actually be a 
member of that body. And I'd like to know from you, if that 
does not happen are you prepared to still assume the 
responsibilities without the authority that you would have if 
you were a member of that body?
    Senator Coats. I'm fully prepared to assume the 
responsibilities.
    Senator Harris. Even if you are--even if the Executive 
Order is not modified?
    Senator Coats. Yes, I am. I've been assured that I have the 
authority to be a member of that committee and be at that 
committee in every one of its meetings.
    Senator Harris. Wouldn't you agree the assurance would be 
sealed if the Executive Order is modified to indicate that the 
position that you now seek is actually entitled to be a part of 
all meetings that relate to national security?
    Senator Coats. As I've indicated before, I'm going to take 
that message to the Administration that the question was raised 
here. I'm perfectly comfortable with it because I trust them 
and I believe what they have told me and I intend to do this. 
But----
    Senator Harris. I would be concerned because they've----
    Senator Coats. I would like to get back to you----
    Senator Harris [continuing]. Also suggested that this came 
from the Bush era and we know that there have been 
modifications since. I would be concerned.
    But I appreciate your service and your candor.
    Senator Coats. Thank you.
    Senator Harris. Thank you.
    Senator Coats. Thank you.
    Chairman Burr. Senator Cotton.
    Senator Cotton. Thank you, Mr. Chairman.
    Thank you, Dan, for once again answering the call of 
service.
    Senator Coats. Thank you.
    Senator Cotton. And Marsha, for once again standing beside 
Dan as he answers the call of service. It's good to see you 
back here and I congratulate you on your nomination.
    We've spoken some about the unique challenges and 
opportunities of trying to integrate all 17 agencies within the 
intelligence community that you'll face as the DNI. You're 
obviously very familiar with them. You're familiar with the 
kind of intelligence products they each produce and the 
priorities that they each have.
    Have you any thoughts on what actions can be taken in the 
very short run to make that process work more efficiently and 
to produce a coherent picture for policymakers of what's 
happening in the world overseas in your role as DNI?
    Senator Coats. Obviously, there's a lot I need to learn. I 
want to get acquainted with the various leaders of the 
agencies. But as I have said before, given the nature of the 
threats that we face, we need to act sooner rather than later. 
I've always believed that getting the right people in place is 
what can best execute the doctrine in terms of achieving the 
goals that you want to achieve. So we will quickly, if 
confirmed, move into that mode of filling that up.
    I did recognize earlier on the previous leaders of ODNI and 
the smooth transition that they have arranged by ensuring that 
there's continuity during this gap period of time. But this is 
one of--this rises to an early responsibility.
    Senator Cotton. One of the original purposes of the ODNI 
was to take the disparate kinds of intelligence that is 
collected by our intelligence agencies, be it human 
intelligence, bank records, satellite imagery, email and 
telephone intercepts, passenger manifests, and synthesize them 
all together to create a coherent picture. I think that's an 
important function and it still can play that function and part 
today.
    One thing I have heard on occasion from my visits to the 
various agencies and talking with their front-line personnel is 
that the DNI over time has imposed bureaucratic mandates on the 
agencies in reporting requirements, HR requirements, and so 
forth, that get their core collectors or their analysts out of 
the business of core collection and analyzing and spend too 
much of their time focused on fulfilling those bureaucratic 
mandates.
    Have you seen that in your preparation and do you have any 
thoughts about how you might focus the DNI on that original 
mission and keep the constituent agencies of the IC focused on 
their original mission?
    Senator Coats. Well, I haven't had enough experience to 
evaluate that. I will certainly take that as an issue to 
address. But without the confirmation, I haven't had the 
opportunity to engage with the other 16 agencies, except to 
begin to formulate some relationships with a few of them, 
starting with the Director of Central Intelligence. We've had a 
number of occasions to talk to each other and share what we 
think the concerns are and what we think we need to do. I think 
that relationship is a very important relationship, maybe the 
first important relationship. So we're already working to 
establish that.
    Senator Cotton. Thank you.
    Finally, you mentioned the Robb-Silberman Commission in 
your opening statement. That was a commission of experts tasked 
to recommend ways to ensure that the intelligence community, 
quote, ``is sufficiently authorized, organized, equipped, 
trained, and resourced,'' end quote. What kind of lessons, if 
any, would you take away from the report of the Robb-Silberman 
Commission and how applicable are those today, recognizing that 
we're about a decade on?
    Senator Coats. Well, not all of those recommendations were 
implemented. I think it's worth going back and looking at the 
original intent and then the reports from Robb-Silberman. They 
made a number of recommendations which were constructive.
    But I just think, after 12 years or so, the agency clearly 
has evolved into what it is today, but taking a look back at 
where it was intended in the first place to go--and as I said, 
this was a compromise piece of legislation, like most 
legislation.
    It was interesting, in the articles I was reading they 
talked to the former directors and a total of eight people who 
were in a position to make an assessment as to what exactly the 
authorities of the DNI were, and there were eight different 
answers. So I think that alone is a signal that we ought to 
perhaps go back and look and see if we want to make some 
adjustments to the law.
    Now, that would have to be done in conjunction with the 
Congress, of course. But at some point, I think maybe sooner 
rather than later, that would be something we ought to look at.
    Senator Cotton. Thank you and congratulations again.
    Senator Coats. Thank you.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. Senator Coats, congratulations. Thank you 
for answering the call to duty once more, and particularly to 
your wife Marsha, who has always supported you through all your 
public service. This is a great continuing contribution and I 
would expect nothing less from you. So thank you for that.
    I wanted to ask about two subjects, one basically to ask 
for your help in your new job once confirmed. I've become 
concerned that the Foreign Agent Registration Act, which 
originally passed back in 1938, needs to be updated. For 
example, we experienced during the time that Congress passed a 
bill called the Justice Against Sponsors of Terrorism Act that 
once Congress voted unanimously to pass that, the President 
vetoed it and Congress overrode his veto, that a foreign 
government spent an untold amount of money to try to lobby the 
United States Congress.
    It troubled me because I'm not sure many people knew what 
the source of the funds or the source of the lobbying effort 
was. It just strikes me as really important, particularly in 
light of the Russian activities that are going to be the 
subject of investigation here, that we look at the Foreign 
Agent Registration Act to see if it needs to be updated so the 
Congress and the public can see where money is coming from by 
foreign countries perhaps hiring lobbyists on K Street to try 
to influence domestic legislation.
    So I'd like to ask for your help and your office's help to 
work on that.
    Senator Coats. Well, you have that. I want to do that. I 
think more transparency needs to be offered to the public 
relative to what this is and what this isn't.
    Senator Cornyn. Absolutely, absolutely.
    I want to go back to a comment that was made by one of our 
colleagues, my friend from Oregon, who's asked you and others 
to produce the numbers of innocent Americans swept up in 
intelligence-gathering operations. I just want you to talk, if 
you will, briefly about all the various minimization procedures 
to suppress incidental or inadvertent communications.
    First of all, it is illegal to target an American citizen, 
correct?
    Senator Coats. That is correct.
    Senator Cornyn. Without a search warrant.
    Senator Coats. That is correct.
    Senator Cornyn. So what we're talking about primarily is 
targeting foreign intelligence persons overseas.
    Senator Coats. 702 is specifically designed for that 
purpose.
    Senator Cornyn. And by the way, the Director of the FBI as 
recently as yesterday in my presence referred to 702 as ``the 
crown jewels of the intelligence community.'' Would you agree 
with that characterization?
    Senator Coats. I would. I would and the intelligence 
community also sees it that way, the entire community.
    Senator Cornyn. So we all saw what happened during the 
course of the debate over the USA Freedom Act, which ultimately 
I voted for. But I'm concerned that we not let the debate on 
the reauthorization of Section 702 get caught up in that same 
sort of hysteria, where some people were worried that the 
Federal Government was spying on them when that decidedly was 
untrue.
    But that's history. But I want to make sure, given the 
importance of Section 702 of the Foreign Intelligence 
Surveillance Act to our intelligence community, that we make 
sure that we do everything possible, first, to educate everyone 
so that they understand what is authorized and what is not 
authorized, and then to work with the Congress to come up with 
an orderly way to make sure that these crown jewels of the 
intelligence community, this Section 702, is authorized.
    I want people to understand that people aren't targeted, 
even foreign agents overseas, without court approval, and there 
is judicial review from time to time. There is oversight and 
review within the Executive Branch, and heaven knows there's a 
lot of oversight here in the Congress over this, as well as in 
the various intelligence agencies themselves. There are layers 
of protection to make sure that no American has to worry about 
their own government spying on them. In fact, every conceivable 
effort is being made to prevent that and to protect the privacy 
rights of Americans, which we all agree is important.
    So I just ask for your continued help. Obviously, you know 
a lot about the topic. But given the particular importance of 
the reauthorization of Section 702 of the Foreign Intelligence 
Surveillance Act, we need to work together early to try to 
educate people, to try to better inform everybody involved, so 
that they can be reassured that the proper balance between 
privacy rights, which we all agree are important, but national 
security, that exactly the right balance is struck.
    Senator Coats. Senator, I couldn't agree with you more. A 
lot of my colleagues have heard me talk when I was a member of 
the committee about finding that balance. I think from one end 
of the spectrum to the other end of the spectrum we all are on 
the same page, that we cherish our private rights in this 
country. They're constitutionally provided to us. We want to do 
everything we can to make sure those private rights are secure.
    But we also know that the Constitution requires us to 
provide for the common defense, and we are under attack from a 
number of sources now, that, whether it's through cyber or 
whether it's through any of a number of other ways, the United 
States is vulnerable to attack. And they want us to provide--to 
do everything we can to keep them safe.
    So finding that balance so that we don't take away private 
rights and at the same time use the necessary tools to 
determine what the bad guys are trying to do, that's important, 
that we find that balance point so we can accomplish both of 
those.
    702 is designed to go after foreign bad guys. It's lawful 
collection. In that process there are some incidental, let's 
just call it, incidental names of Americans, potential names of 
Americans. Some bad guy might have on his laptop the names of 
40 Americans. So if he's targeted for something, all of a 
sudden 40 American names.
    Now, we've put a process in place in devising this law that 
there's minimization of this. I won't go into all the details 
of minimization because I can't explain it as well as others 
can. But it is a process that understands that we're not 
targeting these people, but incidentally they came up because 
they were on this guy's email or on his phone list.
    The level of oversight here is all three branches of 
government, and it's significant to try to secure those 
privacies. There's a query practice. But all these are 
authorized. All these are under court review and oversight 
review.
    This is such a critical tool, I think it deserves full 
transparency to the level that we can while still protecting 
sources and methods and classified information. We need to 
ensure that the public is not led into a situation where they 
think they're, in deference to my colleague from Oregon, 
sweeping up, collecting information about them.
    We're trying to sort it out so that we can find out if that 
bad guy in Syria or wherever is talking to someone in the 
United States--we kind of want to know what they're talking 
about. And there are processes there that protect rights and 
sort that out.
    Senator Cornyn. And there's procedures to go to court if 
there is----
    Senator Coats. There are procedures to go to court.
    Senator Cornyn [continuing]. If content needs to be 
secured, and you have to show probable cause and the court has 
to issue a warrant.
    Senator Coats. All of that, all of that.
    I worried when I went back home on the issue of bulk 
collection and metadata. Now, that's been resolved. 215 of the 
Patriot Act has been--we don't do that any more. But I was 
constantly asked by people back at home: What about this 
megadata? And I said: No, it's not ``megadata''; it's 
``metadata.'' No, no; it's ``megadata''; they're collecting 
everything on us, they're listening to all our calls.
    I asked then--Keith Alexander, who was head of the NSA. He 
said: Well, if we were listening to everybody's calls we would 
have to hire 330 million people to work 24 hours a day. That's 
impossible; we're not. We're just trying to sort out the bad 
guys from the good guys.
    Now, that's a discussion that we don't have to have. It's 
done. It's the law. We're following the law. We have a new 
system now and it would be up to policymakers if they want to 
make any adjustments to that.
    But the 702 is such a valuable tool regarding what foreign 
bad people are trying to do to Americans that I think the 
intelligence community feels very strongly about it. It's your 
decision. We need to provide you with the information that you 
need in order to make decisions as to how to go forward with 
this program.
    I'm sorry I got into a sermon mode there and it's a little 
bit over the top and I used up your time.
    Chairman Burr. Your wife was giving you this [indicating].
    Senator Coats. That wouldn't be the first time, Richard.
    [Laughter.]
    Chairman Burr. Senator Wyden has asked for one additional 
question. Are there other members who seek additional 
questions?
    [No response.]
    Senator Wyden. Thank you, Mr. Chairman.
    I think we do need to clarify this 702 issue, because it is 
critical to the Foreign Intelligence Surveillance Act. Let's 
stipulate that I and every member of the Senate wants to go 
after the foreign threats or, as you correctly call them, 
``foreign bad guys.'' No question about it.
    What has happened, because communications have gotten so 
sophisticated and globally integrated, an indeterminate number 
of innocent Americans have their communications being collected 
under Section 702, and the government can then conduct searches 
for their communications without a court order or even a 
particular suspicion.
    Now, to just step back, our two-part question. I asked you 
if you would get the public the number of how many innocent, 
law-abiding Americans are being swept under FISA 702 
collection. You said yes. And then you went on to say it was 
hard.
    So my two-part question is: Is the answer still yes, you 
will get us the number; and since we have been trying to get 
this for years and years, literally, as you know from being on 
the committee, will you commit now to getting us a report every 
30 days until we get this number? We need it for 
reauthorization and it goes right to the heart, frankly, of how 
you do the balance you're talking about: foreign bad guys, 
absolutely; but an indeterminate number of people are being 
swept up because global communications are now so 
sophisticated.
    So two-part question: Will you stay with your earlier 
answer and say you will get us the number of innocent Americans 
who are swept up before reauthorization? That is a yes-or-no. 
And before you answer yes--is the answer still yes? Is it yes 
or no?
    Senator Coats. Senator, I can't answer that with yes or no 
because I qualified my yes with you. At least that was my 
intent. Let me just explain. I qualified it because I said it 
has been extremely hard to come up with that number for various 
reasons, which I don't fully understand.
    I said I wanted to talk to Director Rogers, I wanted to 
talk to NSA, in terms of what's the problem here, why can't we, 
and what is the right definition in terms of swept up and the 
number. So basically, what I hope that I said--and I want to 
clarify the record for this--is that I will do my best to work 
to try to find out if we can get that number, but I need first 
to find out about why we can't get it. I don't think anybody's 
trying to withhold it from you.
    Senator Wyden. Let's go to my second part. Will you commit 
now to getting us a response every 30 days until we get this 
question answered? Because this has gone on literally--I say 
this to my friend: this has gone on for years, and it has been 
sort of one reason after another. And these are law-abiding 
Americans. So will you report to us every 30 days until we get 
this answered? That's a yes or no.
    Senator Coats. Well, I don't see that as a yes or no either 
until I get the answer in terms of whether that's even 
possible. I can call up Admiral Rogers once every 30 days and 
say, where are we. But I would like to first understand why it 
is, what the issue is here in terms of getting that exact 
number. I don't want to come up with a number that once again 
tells the American people something that----
    Senator Wyden. Nobody's ever come up with a number here. 
We've had years of stalling on this. This is a legitimate 
question. You're a friend. I need to know the answer. I need to 
know the answers to those questions before we have a vote in 
here, because this is central to your key priority, which is 
reauthorizing 702. You've got me at a low on going after the 
foreign threats, but I'm not there with respect to these 
answers on innocent Americans.
    Thank you, Mr. Chairman.
    Chairman Burr. The Chair would ask unanimous consent to 
enter into the record a letter to the committee, Senator 
Warner, and myself from the Electronic Privacy Information 
Center. Without objection, so ordered.
    [The material referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Dan, one last question. Just to make it 
clear, the Executive Order, which was National Security 
Presidential Memorandum No. 2, has not been amended since it 
was issued, correct?
    Senator Coats. That is absolutely correct.
    Chairman Burr. There was a question. It wasn't clear in my 
mind exactly how it was answered, and I just wanted to make 
sure that we cleared the record.
    Senator Coats. I'm glad you made that clarification, yes.
    Chairman Burr. At this time, the open hearing will adjourn 
and we will reconvene in a closed hearing upstairs.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]

                         Supplemental Material
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
